No. 19-1063
IN THE

JOY DENBY-PETERSON,

Petitioner,
V.

Nu2U AUTO WORLD, ET AL.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

CERTIFICATE OF SERVICE
I, Craig Goldblatt, a member of the bar of this Court, hereby certify that, on this
16th day of April, 2020, all parties required to be served have been served copies of the
Amicus Curiae Brief for Third Circuit Court-Appointed Amicus Curiae Supporting
Neither Party in this matter by email and overnight courier to the addresses below.
DANIEL ROY ORTIZ

580 Massie Road
Charlottesville, VA 22903
(434) 924-3127
dortiz@law.virginia.edu

DAVID A. SNYDER

11 W. Ormond Avenue, Suite 150C
Cherry Hill, NJ 08002
(856) 547-5888
dasnyderlaw@aol.com

�OLDBLATT
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
craig.goldblatt@wilmerhale.com

